 U.S. Department of the Interior
 Office of Inspector General




            AUDIT REPORT

AUTOMATED LAW ENFORCEMENT SYSTEM,
       NATIONAL PARK SERVICE

              REPORT NO. 97-I-908
                  JuNE 1997
             United States Department of the Interior
                          OFFICE OF INSPECTOR GENERAL
                                  Washington, D.C. 20240


                                                                JUN 23 IS?

                                                           ..
MEMORANDUM                                           /- ~
TO:                       The Secretary

FROM:

                       /
SUBJECT SUMMARY: Final A@t Report for Your Information - “Automated Law
                 Enforc~ment System, National Park Service” (No. 97-I-908)

Attached for your information is a copy of the subject final audit report. The objectives
of the audit were to: (1) determine whether the National Park Service’s automated law
enforcement system, the Case Incident Reporting System (CIRS), met the law enforcement
reporting requirements of the Federal Bureau of Investigation and (2) provide information
to the Park Service that would assist it in implementing CIRS effectively.

We found that CIRS is capable of meeting the law enforcement requirements of the
Federal Bureau of Investigation and the operating needs of the Park Service. However,
the Park Service needs to enhance documentation, access, and procedural controls over
CIRS to ensure that CIRS, when it is filly implemented, operates effectively in the event
of personnel changes, system failures, or disasters. To correct these deficiencies, we
recommended that the Park Service: (1) establish written policies for CIRS; (2) develop
a process to collect data from remote locations for input into CIRS; (3) ensure that
adequate numbers of personnel are assigned to collect data; (4) ensure that user passwords
are securely stored; and (5) ensure that CIRS users have the required security clearances.

The Park Service’s Audit Liaison Officer provided informal comments to our draft report
and said that, because the response was past due, we should consider these comments to
represent the Park Service’s response. We requested that the Director, National Park
Service, provide a formal written response to this report. As a result, we considered the
five recommendations unresolved.

If you have any questions concerning this matter, please contact me at (202) 208-5745 or
Mr. Robert J. Williams, Assistant Inspector General for Audits, at (202) 208-4252.



Attachment
                                                                         A-IN-NPS-O01-96

             United States Department of the Interior
                             OFFICE OF INSPECTOR GENERAL
                                   Washington, D.C. 20240




                                 AUDIT REPORT

Memorandum

To:       Assistant Secretary for Fish and Wildlife and Parks

From:     obe*.T. WilliamsT~&k%
        bAssistant Inspector General for Audits

Subject: Audit Report on the Automated Law Enforcement System, National Park Service
          (No.   97-I-908)


                                INTRODUCTION
This report presents the results of our audit of the National Park Service’s automated law
enforcement system, the Case Incident Reporting System (CIRS). Our audit was conducted
as part of our review of the Department of the Interior’s automated law etiorcement systems.
The audit objectives were to: (1) determine whether CIRS met the law enforcement reporting
requirements of the Federal Bureau of Investigation and (2) provide information to the Park
Service that would assist it in implementing CIRS effectively.

BACKGROUND

The Park Service’s Associate Director for Park Operations and Education, through the
Ranger Activities Division and the U.S. Park Police, is responsible for ensuring safe and
secure park environments. Park Service Rangers, under the guidance of the Ranger
Activities Division, perform law enforcement and resource protection activities, including
drug enforcement, traffic control, watercrafl- and aircraft-supported enforcement activities,
criminal investigations, and wildlife enforcement activities. The Park Police, an urban-
oriented law enforcement organization within the Park Service, performs a fill range of law
enforcement functions at sites in the metropolitan areas of Washington, D. C.; New York,
New York; and San Francisco, California. The Park Police’s responsibilities include visitor
and facility protection, emergency services, criminal investigations, special security and
protection duties, enforcement of drug and vice laws, and traffic and crowd control.
Under the Uniform Federal Crime Reporting Act of 1988 (Public Law 100-690), which
became effective on January 1, 1989, the Congress mandated that all Federal agencies with
law enforcement responsibility report crime statistics. In response to the Act, the Federal
Bureau of Investigation requires that crime statistics be reported in a uniform computerized
format to its automated system, the National Incident Based Reporting System (NIBRS).
The NIBRS program, which also became effective on January 1, 1989, and is defined in
Volumes I-III of the “Uniform Crime Reporting, National Incident-Based Reporting System”
and in the “Supplemental Guidelines for Federal Participation,” requires Federal agencies to
submit, on a monthly basis, information on 22 offense categories for each crime investigated
(the offense categories are in Appendix 1). The information to be reported includes the
following: location of the crime; race, sex, and age of the offenders; information about the
victims and property involved in the crime; and information on arrests, such as arrest date
and type of apprehension. At the time of our review, the Department was reporting all
criminal investigation data under the Uniform Crime Reporting Program instead of NIBRS.
The Program, which was the predecessor to NIBRS, requires summary information to be
submitted monthly to the Federal Bureau of Investigation on the number of crimes
investigated for only eight offense categories (see Appendix 1).

In 1989, the Park Service’s Information and Data Systems Division, with guidance from the
Ranger Activities Division, began developing CIRS. The Park Service, in its plans for
developing and implementing CIRS, stated that CIRS would satisfi the Federal Bureau of
Investigation’s mandated criminal reporting requirements; tremendously facilitate the data
collection for monthly, quarterly, and annual reports for a variety of disciplines; simplifi the
collection of management data from accident reports, incident reports, search and rescue
data, and emergency medical services data; and standardize offense/incident coding
throughout the Park Service, thereby improving the accuracy of statistical reports. The Park
Police in Washington, D. C., had a different system, which it has operated since 1984. The
Washington, D. C., Park Police will continue operating its system and transfer its NIBRS-
related data from its system to CIRS. The Park Service began to implement CIRS at park
units in January 1995, and by January 1997, almost 90 percent of the park units were using
CIRS.

SCOPE OF AUDIT

To accomplish our audit objectives, we reviewed the general and application controls and
system operations that had been implemented with CIRS. We also reviewed system
documentation, conducted interviews with the program manager and the Section Chief for
Programs, conducted site visits, and contacted system users at the sites listed in Appendix 2.
Since CIRS was intended to meet the Park Service’s NIBRS reporting requirements, we did
not review the law enforcement system of the Washington, D. C., Park Police, which will
transfer NIBRS-related data to CIRS.

Our audit was conducted in accordance with the “Government Auditing Standards,” issued
by the Comptroller General of the United States. Accordingly, we included such tests of
records and other auditing procedures that were considered necessary under the

                                               2
circumstances. As part of our review, we evaluated the system of internal controls to the
extent that we considered necessary. The internal control weaknesses that we found are
discussed in the Results of Audit section of this report.         If implemented, our
recommendations should improve the internal controls.

We also reviewed the Department of the Interior’s Annual Statement and Report, which is
required by the Federal Managers’ Financial Integrity Act, for fiscal years 1994 and 1995
and determined that none of the reported weaknesses were directly related to the objectives
and scope of this audit.

PRIOR AUDIT COVERAGE

During the past 5 years, neither the General Accounting Office nor the Office of Inspector
General has issued any reports related to the scope of this review. However, in June 1989,
the Office of Inspector General issued the report “Law Enforcement Activities, National Park
Service” (No. 89-83), which stated that the Park Service had not planned, supervised, or
controlled investigative activities in accordance with the Departmental Manual. To address
the deficiencies noted in the report, we recommended that the Director, National Park
Service, in coordination with the Assistant Secretary for Policy, Budget and Administration
(now the Assistant Secretary for Policy, Management and Budget), establish a management
information system to track and provide uniform reports on cases and productivity. Based
on the Park Service’s response, we considered the recommendation resolved, and the
development of CIRS implements the recommendation.

                              RESULTS OF AUDIT
We concluded that the National Park Service’s Case Incident Reporting System (CIRS) is
capable of meeting the law enforcement reporting requirements of the Federal Bureau of
Investigation and functioning as an incident reporting system. The Park Service included,
in CIRS, internal controls such as edits to ensure that cases were reviewed and approved
before being reported and to prevent duplicate cases from being maintained.

However, we found weaknesses in the Park Service’s general controls over CIRS. In that
regard, the Park Service needs to enhance documentation, access, and procedural controls
to ensure that CIRS, when it is fully implemented, operates effectively in the event of
personnel changes, system failures, or disasters. These weaknesses areas follows:

    - The Park Service did not have written policies in the areas of a system user manual that
describes data input or modification procedures; data backup or archival requirements such
as storage and time frames; hardware and software security; descriptions of system
processes; and specific data submission procedures.

    - Park Service officials said that the Park Service intends to rely on park unit employees
to transmit electronically incident data to the Park Service’s central CIRS computer in
Atlanta, Georgia, rather than having CIRS retrieve data automatically from remote locations.

                                              3
Thus, there is little assurance that the Park Service will be collecting and reporting all law
enforcement data from all of the park units.

    - Only one Park Service employee was responsible for collecting all of the data from
park unit employees and reporting monthly and annually to NIBRS, Park Service managers,
and non-Park Service activities such as the Congress. Thus, if the one employee is
unavailable or leaves the Park Service, the Park Service has little assurance that NIBRS data
will be collected and reported accurately and timely.

   - The Park Service established passwords for CIRS users to restrict access to CIRS data;
however, the passwords were stored in an easily accessed database file. As a result, sensitive
law enforcement data were at risk of unauthorized access.

    - Because CIRS data are sensitive and are subject to the Privacy Act, users are required
by the Departmental Manual (446 DM 14.4C) and the Park Service Manual (NPS 9) to have
security clearances. However, at the one park unit we visited, CIRS users who were seasonal
employees had not received the appropriate security clearances until after their appointments
had expired. As such, there was a risk for unauthorized access to sensitive data.

Recommendations

We recommend that the Director, National Park Service, ensure that:

    1. Written policies are established for CIRS, including a system user manual and
requirements for security, data backup and archival, data maintenance, system processes, and
data submission.

   2. A process is developed that automatically collects all park unit data into the Park
Service’s central CIRS computer.

    3. At least one alternate employee is designated within the Ranger Activities Division
to collect and distribute Park Service law enforcement data.

    4. Controls are established so that passwords of CIRS users cannot be stored in alternate
databases and cannot be accessed.

    5. CIRS users have the required security clearances before they access CIRS data.

National Park Service Response and Office of Inspector General
Comments

We requested that the National Park Service provide, in accordance with the Departmental
Manual (360 DM 5.3), written comments to the draft report by March 24, 1997. Since
comments were not received by the due date, we informed the Park Service on April 11,
1997, that the response was overdue. On April 16, 1997, the Audit Liaison Officer sent us

                                              4
an electronic mail message that included separate comments to the draft report from three
Park Service employees who were responsible for developing and implementing the Park
Service’s automated law enforcement system. The Audit Liaison Officer said that, because
the response was past due, we should consider these comments to represent the Park
Service’s response. However, we request that the Park Service submit a formal written
response on each of the audit recommendations, as required by the Departmental Manual
(360 DM 5.3). Therefore, we are requesting that the Director, National Park Service, provide
a written response to this report by July 30, 1997. The response should provide the
information requested in Appendix 3.

The legislation, as amended, creating the Office of Inspector General requires semiannual
reporting to the Congress on all audit reports issued, actions taken to implement audit
recommendations, and identification of each significant recommendation on which corrective
action has not been taken.

We appreciate the assistance of National Park Service personnel in the conduct of our audit.
                                                                                          APPENDIX 1

                     REPORTABLE OFFENSE CATEGORIES
National Incident Based Reporting System                   Uniform Crime Reporting Program

  1. Homicide Offenses                                       1. Homicide
        Murder and nonnegligent manslaughter                       Murder and nonnegligent manslaughter
        Negligent manslaughter                                     Manslaughter by negligence
        Justifiable homicide                                 2. Forcible Rape
  2. Sex Offenses, Forcible                                        Rape by force
        Forcible rape                                              Attempts to commit forcible rape
        Forcible sodomy                                      3. Robbery
        Sexual assault with an object                              Firearm
        Forcible fondling                                          Knife or cutting instrument
  3. Robbery                                                       Strong-arm, hands, fists, feet, etc.
  4. Assault Offenses                                              Other dangerous weapons
        Aggravated assault                                   4. Aggravated Assault
        Simple assault                                             Firearm
        Intimidation                                               Knife or cutting instrument
   5. Burglary/Breaking and Entering                               Other dangerous weapons
   6. Larceny/Theft Offenses                                       Hands, fist, feet, etc.
        Pocket-picking                                       5. Burglary
        Purse-snatching                                            Forcible entry
         Shoplifting                                               Unlawful entry
        Then from building                                         Attempted forcible entry
         Theft from coin-operated machine or device          6. Larceny - Thefl (except motor vehicle)
         Theft from motor vehicle                            7. Motor Vehicle Theft
         Thefi of motor vehicle parts or accessories               Autos
         All other larceny                                         Trucks and buses
   7. Motor Vehicle Theft                                          Other vehicles
   8. Arson                                                   8. Arson
   9. Bribery                                                      Structural
  10. Counter feitingiForgery                                      Mobile
  11. Destruction/Damage/Vandalism of Property                     Other
  12. Drug/Narcotic Offenses
         Drug/narcotic violations
         Drug equipment violations
  13. Embezzlement
  14. Extortion/Blackmail
  15. Fraud Offenses
         False pretenseslswindlelcon fidence game
         Credit card/automatic teller
         Machine fraud
         Impersonation
         Welfare
         Wire fraud
  16. Gambling Offenses
         Betting/wagering
          Operating/promoting/assisting gambling
          Gambling equipment violations
          Sports tampering
   17. Kidnaping/Abduction
   18, Pornography/Obscene Material
   19. Prostitution Offenses
          Prostitution
          Assisting or promoting prostitution
  20. Sex Offenses, Nonforcible
          Incest
          Statutory rape
   21. Stolen Property Offenses (receiving, etc.)
   22. Weapon Law Offenses


                                                       6
                                                                                     APPENDIX 2



                        SITES VISITED OR CONTACTED


                      Sites Visited                                            Location

Information and Data Systems Division                              Washington, D.C.
National Park Police Headquarters                                  Washington, D.C.
Education and Visitor Services
    Atlantic Coast System Support Office                           Atlanta, Georgia
Rocky Mountain National Park
    Dispatch Office                                                Estes Park, Colorado



                    Sites Contacted                                             Location

Canyonlands National Park*                                          Moab, Utah
Dinosaur National Monument*                                         Dinosaur, Colorado
Florissant Fossil Beds National Monument*                           Florissant, Colorado
Glacier National Park*                                              West Glacier, Montana
Golden Gate National Recreation Area*                               San Francisco, California
Grand Canyon National Park*                                         Grand Canyon, Arizona
Rocky Mountain National Park*                                       Estes Park, Colorado
Salinas Pueblo Missions National Monument*                          Mountainair, New Mexico
Colorado Plateau and Rocky Mountain
    System Support Office                                           Denver, Colorado




a-
 Employees were contacted during a 2-day CIRS training class held on March 24-25, 1996, in Denver,
Colorado.


                                                   7
                                                                  APPENDIX 3


        STATUS OF AUDIT REPORT RECOMMENDATIONS

Finding/Recommendation
        Reference          Status                  Action Required

    1,2,3,4, and5        Unresolved   Provide a response to the recommendations.
                                      If concurrence is indicated provide a plan
                                      identifying actions to be taken, including
                                      target dates and titles of officials
                                      responsible for implementation. If
                                      nonconcurrence is indicated, provide
                                      specific reasons for the nonconcurrence.




                                      8
               ILLEGAL OR WASTEFUL ACTMTIES
                   SHOULD BE REPORTED TO
             THE OFFICE OF INSPECTOR GENERAL BY:


Sending written documents to:                                Calling:


                   Within the Continental United States

U.S. Department of the Interior                        Our 24-hour
Office of Inspector General                            Telephone HOTLINE
1849 C Street, N.W.                                    1-800-424-5081 or
Mail Stop 5341                                         (202) 208-5300
Washington, D.C. 20240


                                                       TDD for hearing impaired
                                                       (202) 208-2420 or
                                                       1-800-354-0996


                  Outside the Continental United States


                                  Caribbean Region

U.S. Department of the Interior                        (703) 235-9221
Office of Inspector General
Eastern Division- Investigations
1550 Wilson Boulevard
Suite 410
Arlington, Virginia 22209


                                North Pacific Region

U.S. Department of the Interior                        (700) 550-7428 or
Office of Inspector General                            COMM 9-011-671-472-7279
North Pacific Region
238 Archbishop F.C. Flores Street
Suite 807, PDN Building
Agana, Guam 96910
                          w
Toil Free Numbers:
 1-800-424-5081           E
                          m
 TDD 1-800-354-0996       =
                          s
                          s
FTS/Commercial Numbers:
 (202) 208-5300
 TDD (202) 208-2420       Em

 HOTLINE ;
1849 C Street N.W.        E
Mail Stop 5341            E
Washington, D.C. 20240
                         .;
